<html>
<title> - [H.A.S.C. No. 114-37] THE ROLE OF SURFACE FORCES IN PRESENCE, DETERRENCE, AND WARFIGHTING</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                                     
 
                         [H.A.S.C. No. 114-37]

                       THE ROLE OF SURFACE FORCES
                        IN PRESENCE, DETERRENCE,
                            AND WARFIGHTING

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 15, 2015

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                     

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-748                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                     
  











             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
BRADLEY BYRNE, Alabama               JAMES R. LANGEVIN, Rhode Island
ROBERT J. WITTMAN, Virginia          RICK LARSEN, Washington
DUNCAN HUNTER, California, Vice      MADELEINE Z. BORDALLO, Guam
    Chair                            HENRY C. ``HANK'' JOHNSON, Jr., 
VICKY HARTZLER, Missouri                 Georgia
PAUL COOK, California                SCOTT H. PETERS, California
JIM BRIDENSTINE, Oklahoma            TULSI GABBARD, Hawaii
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RYAN K. ZINKE, Montana               SETH MOULTON, Massachusetts
STEPHEN KNIGHT, California
STEVE RUSSELL, Oklahoma
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                        Katherine Rember, Clerk



















                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     3
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

Clark, Bryan, Senior Fellow, Center for Strategic and Budgetary 
  Assessments....................................................     3
McGrath, Bryan, Managing Director, The FerryBridge Group.........     6

                                APPENDIX

Prepared Statements:

    Clark, Bryan.................................................    31
    Courtney, Hon. Joe...........................................    29
    Forbes, Hon. J. Randy........................................    27
    McGrath, Bryan...............................................    50

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
  THE ROLE OF SURFACE FORCES IN PRESENCE, DETERRENCE, AND WARFIGHTING

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                         Washington, DC, Wednesday, April 15, 2015.
    The subcommittee met, pursuant to call, at 2:02 p.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. I would like to call this hearing to order.
    And before we get started, I want to welcome my newest 
member of both the full committee and the subcommittee, Mr. 
Russell from Oklahoma, who has had a very distinguished career 
in serving our country.
    And we are delighted to have you both on our full committee 
and on the subcommittee. Look forward to your input and help as 
we move forward with this markup and other things the 
subcommittee will be doing.
    Today the subcommittee meets to discuss the role of surface 
forces in presence, deterrence, and warfighting. I am 
particularly pleased to have two distinguished seapower expert 
witnesses to testify before our subcommittee.
    Mr. Bryan Clark is a Senior Fellow at the Center for 
Strategic and Budgetary Assessments, and Mr. Bryan McGrath is 
Managing Director at The FerryBridge Group.
    Thank you, both, for being here and testifying today. We 
always enjoy reading your material, and we are looking forward 
to hearing you today.
    This committee's last hearing discussed the evolving 
maritime security report in the Navy's recently released 
report, ``A Cooperative Strategy for 21st Century Seapower.'' 
Today we examine surface forces in this new environment and how 
we accomplish the transition from a defensive to an offensive 
surface force capable of operating and achieving objectives 
both independently and in cooperation with other forces.
    Looking at our naval surface forces today, we see a 
multitude of new capabilities are being integrated into the 
fleet. We are incorporating better sensors, including an 
expanded air and missile defense radar that is 30 times better 
than current technologies, and a new digital electronic warfare 
capability to deter, detect, or to better detect, decoy, and 
defeat incoming missiles.
    We are continuing to expand our antisubmarine warfare 
capabilities, including the addition of multi-function towed 
array and a variable depth sonar on our small surface 
combatants that will be able to better track even the quietest 
of submarines.
    We are fielding new missiles to better pace the threats we 
face, including a long-range antiship missile and better short-
range missile capabilities resident in the enhanced Sea Sparrow 
missile.
    Although we face severe fiscal constraints in research and 
development, there are new technologies available that the Navy 
will shortly be able to integrate into existing platforms.
    Advances in technology, such as the electromagnetic rail 
gun and the laser weapons system, permit the integration of 
systems and promote the multi-functionality of systems. Instead 
of a multi-million-dollar missile, a single salvo from a rail 
gun will cost less than $50,000. These systems represent a 
great opportunity to fundamentally change the cost curves in 
our favor.
    In addition to harnessing our technological innovation, our 
Navy is exploring a new concept entitled ``distributed 
lethality,'' a concept that would disaggregate and better arm 
the surface fleet. Providing for a better tactical employment 
of our surface combatants by disaggregating surface combatants 
from a centralized carrier battle group may represent our best 
chance of creating a tactical force multiplier.
    By complicating potential adversary's ability to 
successfully target future naval combatants, our Navy becomes 
more survivable and increases the probability that potential 
aggressors will decide to pass at future conflict.
    I continue to believe the most challenging capability or 
tactical problem that the Navy has to contend with does not 
reside within the Department nor is it posed by potential 
adversaries. I believe that the most pervasive and difficult 
problem that the United States Navy faces today is the will of 
this body to provide for our common defense and to not be 
lulled into a false sense of security.
    The idea of American exceptionalism is not idle words, but, 
rather, a unique American approach to our current challenges 
and future goals and objectives. We need to embrace the role of 
the United States and especially the role of the United States 
Navy and surface fleet, in particular, in maintaining and 
securing the global commons.
    As proponents of seapower, we know that our Nation's 
viability and future is linked to the strength and health of 
our fleet. I just question what we are doing today to ensure 
our next generation is able to enjoy the same benefits of life 
and liberty that preceding generations have provided to us. I 
look forward to hearing Mr. Clark and Mr. McGrath's insights on 
how the Navy can reach distributed lethality amidst fiscal 
constraints.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 27.]
    Mr. Forbes. And, with that, I would like to now turn to the 
ranking member of this subcommittee, Mr. Courtney, for any 
comments he may like to offer.

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to both witnesses for your presence here 
today. Again, you have been sort of frequent fliers around this 
building, and much appreciated. Because, you know, there is 
obviously a lot in the short term with a mark just a few days 
away, but, also, frankly, the longer view that I think you guys 
spend a lot of time thinking about and your experience and 
training, you know, really provides a very helpful guidance to 
all of us.
    I am not going to read my whole statement here, but just 
sort of reiterate what the chairman mentioned, is that the 
Cooperative Strategy for 21st Century Seapower, which was 
released and we had a hearing on a few days ago, again, sort of 
focused on the fact that our surface forces are critical to 
making that strategy work. It faces, in many respects, you 
know, almost unprecedented challenges.
    The Under Secretary for Acquisition, Under Secretary 
Kendall, spoke yesterday at the Sea, Air, and Space Convention 
with a packed audience and made the comment that he thought 
that the sort of changing technology and capabilities out there 
are about as threatening as existed back at the time of World 
War I with the evolution of a lot of new platforms that people 
really hadn't even gotten their heads around. So, you know, 
obviously, we really need to be focused on what you are here to 
talk about today.
    So, again, look forward to your testimony.
    And, Mr. Chair, I am just going to ask the rest of my 
remarks be entered for the record.
    Mr. Forbes. Without objection, they will be entered.
    [The prepared statement of Mr. Courtney can be found in the 
Appendix on page 29.]
    Mr. Courtney. And I will yield back.
    Mr. Forbes. Thank you, Mr. Courtney.
    And I know you served on a panel at that exposition. I know 
you represented us all very, very well. And I am sure that you 
mentioned submarines at least once or twice in that panel. Not 
today, but thanks so much.
    Mr. Clark, it is my understanding you are going to start.
    And, as I mentioned to both of you, we will put your full 
written remarks in the record, but we look forward to any 
opening comments that either of you may have.
    So we will turn the floor over to you.

 STATEMENT OF BRYAN CLARK, SENIOR FELLOW, CENTER FOR STRATEGIC 
                   AND BUDGETARY ASSESSMENTS

    Mr. Clark. Thank you, sir. Chairman Forbes and Ranking 
Member Courtney, thank you very much for inviting us to discuss 
the role of the surface Navy in presence, deterrence, and 
warfighting today. I am honored to be here and to appear with 
my friend Bryan McGrath.
    This discussion is timely, as the U.S. Navy surface force 
is at a crossroads. At the beginning of this century, the Navy 
had planned to introduce a family of new warships, the CG(X) 
missile defense cruiser, the DD(X) land attack destroyer, and 
the sea control-focused littoral combat ship [LCS]. Now we look 
back and each of those ships is now either truncated or 
canceled, and we need a new family of surface ships to address 
the future of security environment.
    The environment in which those ships was introduced 
reflected kind of that post-Cold War security environment where 
the Navy supported power protection ashore and its dominance at 
sea was unquestioned.
    The new cruiser was designed to protect U.S. forces from 
missiles launched from land. The destroyer was designed to use 
stealth to approach close to shore and use its guns to attack 
targets on land. And the littoral combat ship was planned to be 
used to address coastal threats, like mines or diesel 
submarines and small boats.
    Today the security environment is much different. In 
particular, sea control can no longer be assumed and U.S. 
surface forces are going to have to expect to fight to gain and 
maintain access for the joint force in the future. Also, 
resources to address this challenge have and will continue to 
be constrained.
    So recognizing these trends, the Navy decided to end each 
of these programs that were involved in this new family of 
surface ships, but it now needs to come up with a set of new 
solutions that are going to address this future environment.
    That future environment is much different. Today 
sophisticated anti-access/area-denial capabilities continue to 
improve and proliferate, threatening U.S. freedom of action, 
and challenging the security assurances it provides to its 
allies and partners.
    At the same time, instability is spreading through the 
action of revisionist states, such as Russia, China, and Iran, 
and there is also the failure of governments in the Middle East 
and Africa, which are increasing demands for U.S. forces to 
come in and help train and do security assistance with our 
allies and partners around the world.
    Fortunately, the Navy has some opportunities to address 
this set of challenges both with instability and anti-access 
capabilities.
    In the next year, it is going to finalize specifications 
for the Flight III Arleigh Burke destroyer; it is going to 
determine the specific requirements for the new frigate that is 
going to be introduced; it is going to implement a plan to try 
to sustain its cruiser capacity; it is going to integrate into 
the fleet a series of new ships, such as the joint high-speed 
vessel [JHSV], the afloat forward staging base [AFSB], and the 
mobile landing platform [MLP].
    The Navy should take advantage of these opportunities to 
restore the ability of surface combatants to gain and maintain 
access for the joint force through sea control and to also 
sustain the ability of the surface fleet to provide a 
stabilizing presence and provide security assistance and 
training to our allies and partners.
    I believe this is going to take five major actions on the 
part of the Navy. First, it is going to have to adopt an 
offensive mindset. Today a surface fleet is more focused on 
defeating enemy missiles and torpedoes than attacking the 
aircraft, submarines, or ships that have launched them. This 
puts us at the wrong end of the cost exchange and the wrong end 
of the missile exchange.
    The missiles that an adversary would have to launch to 
overwhelm a DDG's air defense would cost about one-tenth the 
price of that DDG. So it puts the adversary in a very 
advantageous position because of the way we are operating. 
Instead, U.S. surface forces need to focus on killing the 
archer instead of shooting down his arrows. That is the only 
way we are going to be able to change the conversation and that 
exchange ratio.
    The number two thing we have to do is change our air 
defense approach. Our cruisers and destroyers today employ an 
air defense concept that uses the largest and most expensive 
interceptive missiles first and only uses cheaper, higher 
capacity systems, such as small interceptors or electronic 
warfare, after the long-range interceptors have run out or 
failed. We need to instead engage incoming missiles closer to 
the ship with improved smaller interceptors and new electronic 
warfare capabilities and directed energy systems that will be 
fielded in the next 5 years.
    Third, we need to take the defensive workload off of our 
large surface combatants. Our cruisers and destroyers should be 
the offensive workhorses of the surface fleet, but, instead, 
they are consigned to a bunch of defensive missions that are 
going to come because we have no other way to provide air 
defense to forces ashore or forces at sea, as well as escorting 
convoys and logistic ships in wartime.
    One way you could do that is to make sure that the Navy's 
new frigate will be able to do air defense. Another way we can 
do that is by looking at ways to shift ballistic missile 
defense missions, which are an increasing demand signal on the 
surface Navy, to shore systems that are able to do those 
missions much more efficiently in certain locations.
    Four, we need to expand our capacity for training and 
security force assistance from sea. Today we only have half the 
number of small surface combatants that the Navy said are 
required. Half. What that means is, for all of those missions 
for minesweeping, for training, for maritime security, like 
counterpiracy, we are having to use cruisers and destroyers 
instead of using frigates and other small ships as we have done 
in the past.
    We need to look at ways to be able to expand the ability of 
other ships, such as those in our logistics fleet or in support 
ships, to be able to do some of those missions instead of using 
our large surface combatants to do so. There is ways we could 
do that by adapting the LCS mission package concept and 
widening its approach and using it on other ships than just the 
LCS.
    Fifth, we need to adopt new technologies. Lasers, rail gun, 
new electronic warfare systems, and unmanned systems are all 
mature, and we have seen examples of them being used in 
operational environments. The Navy needs to start looking at 
ways to integrate these into combatant ships to be able to take 
advantage of what they are going to provide in terms of higher 
capacity, lower cost, offensive, and defensive capabilities.
    These actions would enhance warfighting. They would enhance 
our ability to provide presence. And the end effect of that is 
going to be deterrence. And that is what we are looking for 
from the Navy, because, fundamentally, the Nation depends on 
naval forces to deter and defeat other forces in conflict.
    I look forward to your questions and the discussion that 
will follow. Thank you.
    [The prepared statement of Mr. Clark can be found in the 
Appendix on page 31.]
    Mr. Forbes. Thank you, Mr. Clark.
    Mr. McGrath.

STATEMENT OF BRYAN McGRATH, MANAGING DIRECTOR, THE FERRYBRIDGE 
                             GROUP

    Mr. McGrath. Thank you, Chairman Forbes, Ranking Member 
Courtney, and other members of the subcommittee for the 
invitation to testify here today on the role of surface forces 
in presence, deterrence, and warfighting.
    Surface forces play distinct roles in all three of these 
functions with the capability of the ship generally determining 
how extensible it is throughout the range of functions. 
Generally speaking, the more capable the ship, the more 
extensible it is.
    That said, a new generation of threats, a decline in 
surface force proficiency in some vital missions, and a lack of 
operational imagination raise important questions about the 
future employment of the surface force in wartime.
    China's 20-year program of naval modernization and the 
development of anti-access and area-denial [A2/AD] regime are 
in no small measure associated with their realization after the 
Taiwan Strait Crisis of 1996 that American naval dominance in 
East Asia had to be contested. During this last 20 years, the 
U.S. Navy has gotten smaller, even as it has purposely de-
emphasized the capabilities that are now required to counter 
China's A2/AD complex.
    After years of neglecting surface-based antisubmarine 
warfare and antisurface warfare, we are now faced with a rising 
peer competitor who is forcing us to face this neglect.
    We have a surface force that is less capable of destroying 
enemy surface and submarine forces than its Cold War 
predecessor. We have a carrier air wing that has privileged 
short-range strike to the point where its effectiveness and 
traditional war-at-sea tasks is questionable. That question of 
the carrier air wing is one I hope we are able to take up on 
another day.
    In the future, sophisticated sea-denial strategies, such as 
those wielded by the Chinese, will drive the U.S. Navy to look 
at seizing temporary and limited pockets of sea control in 
order to enable other follow-on operations, something I like to 
call offensive sea control, though it bothers the purists.
    In an era of little or no threat, the Navy packed its 
defense around the carrier and it positioned itself close to an 
adversary in order to generate maximal combat sorties. Against 
a high-end, near-peer competitor implementing an A2/AD 
strategy, this is no longer possible. The carrier strike group 
will have to fight its way into portions of the ocean from 
which it can then execute strikes and then quickly retire and/
or relocate.
    In essence, this resembles an island-hopping campaign that 
you are familiar with from the Second World War, except, 
whereas in those battles islands were seized and then held to 
enable follow-on operations, in this paradigm, pieces of the 
ocean will be seized and held for some period of time from 
which offensive operations are then conducted.
    Critical to any concept of offensive sea control is a more 
lethal, mobile, and innovatively employed surface force. We 
must begin to more holistically evaluate risk, and we must 
recognize that our current concepts of force employment provide 
a determined foe with increasingly less complexity.
    I look forward to a discussion with you today of creating 
operational problems for potential adversaries with more 
innovatively operated surface forces wielding powerful 
offensive and defensive weapons. Thank you.
    [The prepared statement of Mr. McGrath can be found in the 
Appendix on page 50.]
    Mr. Forbes. Thank you, Mr. McGrath.
    And let me maybe set a stage. And I am going to ask a 
number of things--it is not an exam. So don't feel like you 
have to answer each one. Take whichever one you want to set 
kind of the foundation of this.
    Both of you have talked about today how we have been 
planning essentially for an uncontested environment, we are no 
longer going to be in an uncontested environment. If I had 
General Welch here from the Air Force, he would say the exact 
same thing, that tomorrow we are not going to be in an 
uncontested environment.
    How did we miss that? I mean, you know, did we go a decade 
or two decades just missing the fact that one day we would be 
in a contested environment? It seems like to me that was pretty 
obvious. How did we miss that on such a big scale?
    The second thing is: As we find ourselves moving into this 
contested environment, are we talking about the need to change 
platforms or concepts and strategies or perhaps both?
    And then, if it is changing concepts, how good are we at 
changing? I mean, for the longest time we have been talking 
about Air-Sea Battle concept. That was the big, you know, 
concept du jour and all of a sudden, shoom, it just got swept 
out, you know, under the rug.
    And then the last thing that I would like for you to kind 
of put in that framework: We are talking about the high-end A2/
AD stuff that we are looking at. But we looked at in the full 
hearing today--we had Admiral Locklear here, and one of the 
questions I asked--and I know both of you have looked at the 
new Office of Naval Intelligence report that just came out. It 
really talked about the military maritime buildup for China.
    And in addition to that, it talked about them putting out 
more naval ships this year than any other country and more next 
year. But one of the things that particularly concerned me was 
it is not just their naval ships, but it is what they are doing 
in their coast guards. And their coast guard now--with the 
ships that they have in their coast guard alone, they are 
within like 68 ships of our entire Navy and they are having 
huge capacity and capability increases.
    And I showed Admiral Locklear a picture, which I imagine 
you two have seen--I should have showed it to you beforehand--
but it is of a coast guard ship that they have and they have on 
it ``Tug Boat 25.'' I am sure you have seen it. It is painted 
white. And then I showed a picture beside that of their 
amphibious naval ship that is just painted gray. But they are 
the exact same ship, you know.
    And I worry sometimes that, when we measure and hear the 
Navy talking, they are comparing our Navy against their navy, 
but we are missing those lower tier aggressive fights.
    So putting that in perspective, how did we miss this 
environmental shift? Are we looking at platforms versus 
concepts? And then how do we take into account kind of this 
lower tier aggressive action we are seeing not just from the 
Chinese, but the Russians, the Iranians? And how does that play 
into what we are doing here? Either or both of you on that.
    Mr. Clark. Okay. Well, so I will go first. I will tackle 
some of those.
    To start with the last one first--or to start with this 
overall question of, I guess, how did we end up in a contested 
environment without realizing that we were going to do so, a 
lot of that had to do with the fact that we were fighting other 
conflicts at that time.
    So during the post-Cold War period, for about 25 years, 
from, you know, 1990 until 2015, we have enjoyed a relatively 
peaceful time, from the Navy's perspective, of not having to 
deal with a peer competitor.
    But for the first 10 years or so of that, there was really 
no competitor at all and we didn't expect that the capabilities 
that Russia had developed would then be proliferated to a bunch 
of new actors. And then, when that happened, we continued to 
rely on our existing Cold War systems to get us through.
    By upgrading them, we figured that they would be able to 
continue to provide us the capacity to defeat new cruise 
missiles, new, you know, weapons that China and others were 
getting that were coming from the Russians, not realizing that, 
at some point, the number of weapons that would be able to be 
brought against us would exceed the capacity of ships to be 
able to defend themselves. And that is really the fundamental 
metric that is being exceeded here, is that more weapons can be 
brought to bear against us than our defensive systems can 
handle.
    And when we say a ``contested environment,'' that is what 
we are really talking about, is that we are going from a time 
when one or two missiles might get shot at you by a rogue state 
or a terrorist actor to now having hundreds of weapons being 
shot at you by a state actor who has been able to buy them from 
the Russians. So that kind of accretion of capacity over time 
is how that sneaks up on you. And, before you know it, you 
realize that you are now on the wrong end of the cost exchange 
and need to make a dramatic change to alter that.
    Part of what China has been doing in their pretty smart 
strategy of developing naval capability has been to develop the 
maritime services, the non-navy coast guard and other 
surveillance services that they use that are not military but, 
instead, civilian forces that go out and use similar 
capabilities to go press their case on legal issues, so 
executing lawfare.
    The problem that we have right now is that the U.S. Navy 
and the U.S. allies in that region don't have a commensurate or 
proportional capability to deal with what is called sub-
conventional aggression. So what the Chinese do is they do 
aggression, but it is below the level of conventional conflict, 
in the hopes that, over time, they are going to be able to gain 
an advantage in the competition for territories in the South 
China Sea and East China Sea.
    So we don't have a commensurate set of non-warship, 
noncombatant-type capabilities that are able to be deployed in 
that region. And our allies don't have the same thing. So we 
are not able to assist them in the way that we might be able to 
where we do equip our noncombatants in a way that would let 
them contribute to that.
    I would say, in order to address these two problems, the 
higher end problem of dealing with a contested environment and 
the lower end problem of the subconventional conflict, there is 
going to be some changes to platforms, but it is going to be a 
lot of changes to concepts that are involved.
    Because how we approach air defense in an environment where 
the adversary can launch more weapons than I have the capacity 
to handle means I need to come up with a new air defense 
concept. So I need to start looking at shooting down incoming 
weapons closer to my own ship than I would like to because I 
need to be able to use smaller weapons, weapons with shorter 
range that I can have higher capacity with. And I can get into 
some more detail on that.
    But there is some specifics on there. But the technical 
limitations of those systems at a high capacity are such that 
they don't go very far away. So I have got to shift my air 
defense concept to be closer in to my ship, which is a cultural 
change for the Navy. We like to shoot things as far away as 
possible so I can get multiple cracks at them before they 
arrive.
    We also need to change our concept for how we provide 
security assistance to our partners. So if China is using its 
coast guard to bully the Philippines or Japan, we need to think 
about having ships that are able to operate at that lower 
level.
    So we need to have noncombatant ships like JHSVs or Coast 
Guard ships or noncombatant logistics vessels that are able to 
go be out there to provide presence that are able to deter 
China from that kind of activity because U.S. forces are 
nearby, but without escalating it by having a warship there. 
Because right now our only option is to put a cruiser or a 
destroyer in that region, and that is highly escalatory.
    And then the additional thing we need to do is look at our 
payloads. And so we may need to make some fundamental changes 
with regard to what kinds of weapons we develop and what 
priorities we put on weapons development. Right now we build a 
lot of weapons that are designed for a single mission, and they 
are generally relatively large weapons with big warheads.
    In the future, we are going to have to look at our weapons 
capacity and maximizing it to get more offensive firepower and 
we need to go to smaller weapons that use smaller warheads and 
take advantage of their precision to get the same effect as the 
larger warhead weapons.
    And I need to look at shorter range weapons that perhaps 
can be smaller as well so I can carry more of them on my ships, 
more of them on my airplanes, to expand the capacity that I am 
able to bring to bear against an adversary who has got a high 
capacity of his own.
    Mr. Forbes. Thank you.
    Mr. McGrath, do you want to take a bite at that, 
especially--I know you have written a lot about distributed 
lethality. How does that play in that concept in both terms of 
offensively for us but, also, maybe a cost-imposition strategy 
against some of our opponents?
    Mr. McGrath. Yes, sir. Let me start with how did we miss 
it. We were busy. We were busy doing something else. Not 
everybody missed it. I think the Navy did a pretty good job 
tracking the desires and the actions of the PRC [People's 
Republic of China] as it reacted to the event that I discussed 
earlier, the Taiwan Strait incident of 1996. The problem was 
that the rest of the military and the Department of Defense was 
doing very important today work, the Iraq war and the 
Afghanistan war.
    I think that PRC was wise in when it picked its time to 
modernize. Again, our attention was elsewhere. Most of our 
attention was elsewhere. I think, though, that that dynamic has 
changed, and I see very positive signs here on the Hill, at the 
White House, and at the Pentagon with respect to focusing more 
appropriately on China as a peer competitor.
    You asked about changing platforms and concepts and 
systems. Everything needs to be on the table. We have arrived 
at a place where our Navy hasn't fought a war--a real war in 
decades against another Navy or against land forces that were 
attempting to destroy it.
    The tactics, techniques, procedures, platforms, acquisition 
paths that we have placed ourselves on are not up to the 
challenge of a peer competitor that would wish to deny us what 
we consider our primary competitive advantage, and that is the 
projection of power from the sea.
    So I think everything has to be looked at. You can't look 
at it all at the same time and fund it all at the same levels, 
but you can think about these things. And I see a lot of 
thought going into evolution of the air wing, distributed 
lethality, the submarine forces. Networked operations is just 
fascinating, the things that they are talking about. So I think 
the Navy is really leaning forward in that regard.
    As for Air-Sea Battle, I think, to some extent, when you 
say it was swept under the rug, some of that I think is, I 
think, a very positive sense of trying to put some toothpaste 
back in the tube and stop talking about it all the time. Talk 
about the things that you have made decisions--very important 
decisions to talk about because those decisions and what you 
reveal has a potential impact and an effect that you have 
thought about and that you can measure. So I think the 
Department has gotten a little smarter about how to talk about 
it.
    You asked about distributed lethality, and that is 
something the surface force is talking about quite a bit. 
Distributed lethality or, as I like to describe it, a concept 
in which the surface forces of the United States Navy are on an 
individual unit level made more powerful and then, to really 
optimize that investment, operated differently, not just in the 
sort of defense of the carrier battle group--although we still 
have to do that--defense of the amphibious ready group--
although that must still be done--but to create mischief, to 
spread the adversary's ISR [intelligence, surveillance, and 
reconnaissance] forces, to make them assign weapons to a lot 
more targets so that then any one target has a smaller number 
of weapons assigned to it. You are diluting--you are thinning 
his quiver before he ever shoots. These are reasonable 
operational ends that the surface force can pursue.
    A more distributed surface force in wartime is, I think, a 
laudable goal. The way the surface force operates in the 
presence and deterrence phases of operations is where we most 
likely are to sort of rub up against these nontraditional 
forces that you have described from the PRC.
    Quite simply, there aren't enough of our forces to be there 
and to be watchful and to provide a jaundiced eye at the 
operations that are ongoing. Oftentimes these operations come 
to our attention because the nation who believes its rights are 
being violated videotapes the event or, even worse, China 
videotapes the event because what it is doing was plan in order 
to have a desired effect that it could then exploit later.
    I think we have to get more sophisticated about how we work 
with our allies in the region to respond to these events, pre-
planned responses in which escalation is controlled, in which 
the story that would be written is thought about in advance, in 
which those nations use the legal justification--or the legal 
system to their best advantage.
    I have no problem with the Philippines, for instance, 
taking China to court. I think we should be encouraging nations 
in the region to use the U.N. [United Nations] and the Law of 
the Sea Convention to the max extent that they possibly can. I 
am not sure distributed lethality has a real impact on that 
problem in presence and deterrence.
    Mr. Forbes. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And, again, thank you to both witnesses.
    Mr. Clark, again, you started off with taking us back to 
the beginning of the century and the shipbuilding plans and, 
you know, the best laid plans obviously have changed.
    You know, one of the sort of fallout that we are still 
wrestling with as a subcommittee is the cruiser change that you 
mentioned and, obviously, trying to figure out a cruiser 
modernization plan that works both in terms of, you know, the 
length of time that these cruisers can be available and, 
obviously, you know, fitting it into the rest of the 
shipbuilding plan.
    I was just wondering if you had any comments in terms of 
the back-and-forth over the last year or two about, you know, 
what the Navy's proposed, Congress' response, and any possible 
changes even from here.
    Mr. Clark. Right. Thank you.
    So the Navy had proposed originally to decommission about 
half of its cruisers in a money-saving effort mostly. And then 
Congress came back and required the Navy to come up with a 
better plan and there was some money set aside to be able to 
support that.
    And the Navy came up with what I think was probably the 
best argument and the best plan going forward, which was to 
take those 11 cruisers, which are half the cruiser force, put 
them into a layup of sorts and then modernize them over time 
and then bring them back into the fleet some number of years 
later so that they would be able to extend their lives and that 
they would be available out into the 2030s--into the late 2030s 
or early 2040s.
    What that would do is a couple of things. So it would save 
the Navy some money in the near term because those ships would 
be largely de-manned and then the cost to operate them would 
not be borne by the Navy until they get brought back into the 
fleet. So there would be some near-term savings.
    And then down the road, the Navy would be able to have them 
back in the fleet at a time when it is having to buy the new 
SSBN [ballistic missile submarine], which is going to decimate 
the shipbuilding plan. It is going to be--40 percent, maybe 
more, of the amount of money that would normally be allocated 
to shipbuilding might be going to the SSBN and the carrier that 
would be built around the same time. So there wouldn't be much 
money for anything else. Cruisers would be available to help 
augment the capacity of the surface fleet.
    I think that was a very effective plan in terms of 
sustaining force structure, dealing with the fiscal constraints 
the Navy is under right now. The challenge with that, though, 
is that the Navy doesn't have a good track record of taking 
ships out of the fleet to put into some layup or inactive 
period and bringing them back. They tend to go to that inactive 
state and then make their way eventually to decommissioning 
instead of going back into the fleet at some later date.
    So I think, if the Navy could be held to account to ensure 
that those ships get brought back into fleet and showed that 
willingness by having money set aside to support the phased 
modernization that would occur, I believe that would be the 
best approach.
    Now, I think a compromise, the 2/4/6 plan, is a worthwhile 
alternative because it still helps extend the lives of the 
cruisers out into the 2030s so they are able to address the 
crunch in shipbuilding funds that will occur in the future.
    It does save some money in the near term so that there are 
some benefits on both sides to that, and I think it is a 
worthwhile compromise. It would be good to see the Navy put 
some money against it so that it would be clear that that plan 
was funded, though, so they would be able to pursue it.
    Because, otherwise, your only alternatives end up being 
keep them in the fleet, but have them at some level of 
operational capability that is not clear because they are not 
being modernized and they are probably not able to operate as 
effectively as the other cruisers, or decommission them 
entirely, which is not an alternative that is being presented. 
So I think the 2/4/6 plan would be good.
    Mr. Courtney. Mr. McGrath.
    Mr. McGrath. Mr. Courtney, my sense is that, with respect 
to surface force structure, good ideas are in short supply. We 
are dealing mostly with the least bad ideas. And taking all the 
cruisers at one time and bringing them back slowly over a 
course of time I thought was a reasonable response from the 
Navy to a financial situation that they are having a tough time 
dealing with.
    2/4/6 is, I think, a reasonable compromise between 
congressional interests and the Navy's interests. I do think, 
as Bryan said, if the Navy had some money after 2019 in the 
budget to fund it, this would probably not be a conversation.
    There is very little money to be had, given the number of 
things the Navy is trying to do, trying to build new ships and 
new submarines, trying to fund its deployed operations, trying 
to ensure that we don't so starve non-deployed ships of 
maintenance and modernization money that it becomes 
inordinately expensive to bring them out when it is their time 
to go.
    All of these things factor into the decisions they make. 
And, quite frankly, when I see Congress insert money back into 
the budget to keep cruisers in, if you were to do the same 
thing in 2019, 2020, 2021, and 2022, that would satisfy me 
quite a bit because I would like to see this program go 
forward.
    Mr. Courtney. Thank you.
    Mr. Forbes. And just a clarification. To do the 
modernization, you have to have the money in. Is that fair, for 
both of you?
    Mr. Clark. Yes.
    Mr. Forbes. And at this particular point in time the Navy 
has not put any money in their FYDP [Future Years Defense 
Program] to do the modernization, have they?
    Mr. Clark. Only the ships that are being done this year.
    Mr. Forbes. Right.
    But they haven't done anything in their 5-year plan?
    Mr. McGrath. Right. I don't think there is anything after 
the 2015 and 2016 ship.
    Mr. Forbes. Mr. Russell, our newest member of the 
subcommittee, we now recognize him for 5 minutes.
    And, once again, we are delighted to have you as part of 
the subcommittee.
    Mr. Russell. Thank you, Mr. Chairman.
    And thank you, each, for the very insightful overviews. A 
lot of challenges there.
    In the 1980s, you had kind of a whole restructuring of 
moving to the future of our defense posture and you did see a 
lot of ships that, to meet the need, were brought out of 
mothball. And some had been in and out of mothball for several 
iterations and performed magnificently.
    And, you know, Mr. Clark, with regard to the small surface 
vessels and what would be needed to perform some of those 
roles, is that an option that the Navy could turn to to make up 
some of that capacity in the short term?
    Mr. Clark. That might be. So one challenge we will run into 
is it is expensive to take a ship out of mothballs and bring it 
back to a condition where it can operate on a, you know, 
frequent basis overseas.
    So that would be something to think about, is that these 
ships are intended to be relatively inexpensive ships that do 
these missions at the lower end of capability. So if we have to 
spend a lot of money to bring a low-end-capability ship into 
the fleet, maybe that is not worth it.
    The first approach might be to go after some of the 
noncombatant ships that we already have in what is the national 
fleet. So if you look in what the government owns in terms of 
ships, you have got the Navy and its combatant ships, which are 
warships that do their stuff.
    There is also logistics ships that the Navy has that could 
be used, in some cases, to go off and do some security 
cooperation activities, and they do already. They do exercises 
in some cases. And you could put mission packages on them that 
would let them do different things than they do today.
    You could also tap into joint high-speed vessels, which are 
another form of logistics ship. You could go into some of our 
support ships, which include various salvage ships and repair 
vessels, and those things can be used for security cooperation 
and sometimes are.
    Then we can also go into some of the supply ships that are 
part of the Ready Reserve Force, which are reserve ships that 
we maintain in operational status that are designed to be 
brought out within 5 or 30 or 60 days, that could be made 
operational and taken out, and they can use them for some of 
these security cooperation activities. And they are designed to 
be brought out, and it is relatively inexpensive to do so.
    So I may go after those first before we then go into the 
mothball fleet and pull some ships out. But it is definitely an 
option, and it may be less expensive than we anticipate.
    Mr. Russell. It seems like a lot of the critical threats 
that we hear throughout is with regard to advance missile 
technologies.
    You spoke of the cost-ratio benefit to potential opponents 
and how they deal with this. And I know everything from nuclear 
defense capacity with the AN/TPY-2 radars, to the Aegis, to the 
THAAD [Terminal High Altitude Area Defense], a number of other 
things.
    We also have a lot of allies and partners. Our English-
speaking allies, in particular, we don't even have to learn 
languages to operate with them, and they have great 
shipbuilding capacity.
    Does that factor into any of the comprehensive strategy in 
presence, even, as we look to deal with some of that? And how 
do we get them up on systems that we find were already in short 
supply?
    Mr. Clark. So I will let Bryan answer, too.
    But we do. So many of our allies and partners operate Aegis 
systems and similar systems, and they do deploy with us. So 
pretty regularly a NATO [North Atlantic Treaty Organization] 
destroyer or frigate will go with a carrier strike group on its 
deployment and act as part of its escort ship umbrella, if you 
will. So we regularly do deployments where we take advantage of 
what allies and partners bring to bear.
    Mr. McGrath. Mr. Forbes mentioned the surface Navy's 
distributed lethality concept, and I think part in parcel to 
that is the fact that we have allies that do have serious 
capability. The South Koreans have wonderful surface 
combatants. The Australians. The Japanese. The Indians aren't 
necessarily treaty allies, but they are friends and we operate 
with the Indians quite a bit. So there is a great hunger within 
the sort of world surface force.
    Admiral Mullen used to talk about the ``thousand-ship 
Navy.'' Distributed lethality is the thousand-ship Navy with 
teeth. And I think that the ability that we have to integrate 
high-end ships of other fleets into our operations, it is 
almost built in. They have Link 16, you know, that we are using 
the same kinds of systems.
    On the low end, this is something the U.S. Navy has 
traditionally not done all that well, is small ships. And I was 
a captain of a ship. We all come up through the system. And we 
all would love to scorch around on really fast ships as 
lieutenants and be in command of those things, but they are 
expensive to maintain, a lot of them, far from home. And we 
wind up looking--especially in times of fiscal contraction, 
those are nice to have. And we concentrate on the high-end 
warfighting more so than that low end.
    I think, when we find ourselves in a position to more 
appropriately fund naval power, we ought to put some money into 
the low end. We ought to look at some kind of a fast patrol 
vessel, heavily armed, four to eight 200-mile surface-to-
surface missiles, that we could build for ourselves and build 
for export, that we could potentially operate in joint bases or 
composite bases as a way of doing what I like to call maritime 
boots on the ground, economically showing the flag.
    We all have to recognize that these are ships of limited 
capability, but they show the flag and they are reminders of 
what is over the horizon.
    Mr. Russell. Not far from a lend-lease type of approach 
from many years ago.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Thank you.
    The gentleman from Rhode Island, Mr. Langevin, is 
recognized for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our witnesses for your testimony today.
    If I could, I would like to talk first about cutting-edge 
electric weapons capabilities that are starting to deploy 
operationally, specifically the LaWS [Laser Weapon System] 
system deployed onto the USS Ponce right now in the Arabian 
Gulf, and rail gun and advanced EW [electronic warfare] 
capabilities. These systems are, as you know, starting to 
become more and more mature and starting to make their way out 
to the fleet.
    And what I want to know is--obviously, the Navy is clearly 
planning further development. But could you provide your 
assessments of the Navy's plans and whether you feel these 
technologies could be responsibly accelerated.
    Mr. Clark. So that is a terrific point. The Navy right now 
is slowly integrating these new technologies into the fleet. 
And what you are seeing right now is an emphasis on some 
demonstration projects like the Ponce, where we take an 
existing system that has been developed in the technology world 
and bringing it on and just bolting it down to the ship and 
seeing how it works.
    When you get to larger systems, they are going to require a 
little bit more of a footprint, more interaction with the 
ship's combat system and electrical power and cooling systems, 
and that is where you have to do some engineering to figure out 
where it is going to go, how to fit it in, how to hook it up.
    The Navy has not yet got a good plan for how it is going to 
integrate higher energy lasers, so the kinds of lasers that you 
would need to be able to do missile defense, not the smaller 
one that is on the Ponce, but something more in the 300-
kilowatt range.
    Those lasers are quickly maturing. I have seen in the last 
couple weeks lasers that get up at about half that power and, 
putting a few of those together, you essentially get to about 
the 300-kilowatt range. So in the next few years, they are 
going to be available. The Navy needs to be thinking about how 
they are going to put that into the next class of--or the next 
iteration of surface warships that it is developing.
    Similarly, with rail gun, the Navy has got a demonstration 
project that it is going to do next year using Stockton with a 
rail gun onboard, which is terrific. It is a great way to show 
the applicability of that kind of weapon to a ship.
    But, again, there is not a thought or plan yet to integrate 
them into another class of warship, except perhaps a DG-1000 
down the road, which might be a good thing. But, again, that is 
one ship. And it is a three-ship class; so, it is not likely to 
be able to translate into an additional number of hulls.
    The Navy needs to think about: Well, how would I take a 
rail gun and put it onto a number of ships that would make it 
able to make a difference in warfighting? So----
    Mr. Langevin. Yeah. Exactly what you are saying is what 
concerns me, is that the technologies are maturing faster than 
what we may realize. And my fear is that these things are going 
to be ready and we are not ready to deploy them and the 
capabilities in theater.
    Mr. Clark. Exactly.
    Mr. Langevin. Well, I appreciate the answer.
    Mr. McGrath, as you allude to in your testimony, there is a 
sea change occurring in the capabilities of undersea systems, 
including in how they might support surface action.
    While submarines will clearly continue to be the nexus of 
such capabilities, how might advanced undersea systems and 
sensors play into the concept of disaggregated surface forces 
that you discuss?
    Mr. McGrath. Sir, in a big way, especially when the 
shooting starts. The ability of long-range unmanned undersea 
vehicles to deploy electronic warfare sensors, to employ 
weaponized UAVs [unmanned aerial vehicles] that could then 
remove some of the threat that we discussed earlier to surface 
operations--there are so many--and I am sure you have had some 
of these briefs.
    What we can bring--the combat power of them, what we can 
bring from under the surface of the ocean, because it is there, 
it is hiding, and the reaction time to it in many cases is 
negligible for an adversary, huge capability.
    And I appreciate you bringing up the question because what 
it does is it highlights the degree to which the Navy fights as 
a system. We don't fight as an aircraft carrier. We fight as a 
strike group. We fight as an Expeditionary Strike Force. We 
fight as a joint force. And so all of these weapons systems 
work together in, I think, a very robust architecture to 
support each other.
    So I think there is a huge role for subsurface-launched 
sensors and weapons in helping to enable disaggregated surface 
operations. One very important way is to be able to put up 
long-range ISR assets, maybe some kind of a UAV that takes off, 
flies around for 8 or 10 hours, supports a SAG [surface action 
group] that is disaggregated, and then it flies to a land base 
and lands for recovery. That would be a useful capability. But 
I think the sky is the limit on how we can use the undersea 
force.
    Mr. Langevin. Very good. Thank you, both.
    And I yield back, Mr. Chairman.
    Mr. Forbes. I thank the gentleman for his questions. You 
have been a leader on these technology issues. And, hopefully, 
this subcommittee can play a major role in helping the Navy to 
make sure we are moving faster at seeing how we can deploy 
them. So thanks for your questions.
    Mr. Langevin. Thank you.
    And, Mr. Chairman, I should mention that, although I--you 
know, obviously, it is appropriate to raise this issue with 
respect to the Navy in this subcommittee--the Navy has been a 
leader in trying to push these technologies that have been in 
the lab and get them actually into the field. The other 
services could take a lead from----
    Mr. Forbes. We just get greedy and we want to get them 
there even faster.
    Mr. Langevin. Exactly.
    Mr. Forbes. So that is good, Jim.
    Now, I would like to recognize the distinguished gentleman 
from Texas, the chairman of the Agriculture Committee, Mr. 
Conaway, for 5 minutes.
    Mr. Conaway. Well, thank you, Mr. Chairman.
    I represent a district that is totally landlocked. I don't 
have any ports. I don't have any shipbuilding. I don't have 
anything like that. So----
    And, Mr. McGrath, probably the sea is the limit rather than 
the sky is the limit on that last phrase that you used earlier.
    Mr. McGrath. I stand corrected.
    Mr. Conaway. Mr. Clark, on your five-point program, you 
made a reference to a kill-the-archer issue versus, I think, 
what we are doing right now. Put some meat on the bone on that 
for me, given that the archer's range is generally longer than 
the reach of a lot of our stuff that we are bringing to the 
fight. Help me understand what you are talking about.
    Mr. Clark. You bet.
    So the archers, in this case, are going to be aircraft, 
submarines, and surface ships that are able to launch antiship 
cruise missiles at our surface ships.
    Today the surface ships we deploy don't have weapons that 
are able to reach enemy aircraft, ships, or submarines until we 
are already well within range of their antiship cruise 
missiles. So, as Congressman Forbes has said, we are 
outsticked. The way you get out of that is we have to deploy 
some new weapons, and that is why I have got the emphasis on 
weapons there.
    So for the aircraft threat, the new SM-6 missile that is 
coming out that has been deployed on a few ships already and is 
being incorporated with the new Aegis baseline, that missile is 
going to be able to reach an airplane outside the range of the 
airplane's antiship cruise missiles in most cases--or in many 
cases. So that gives us that ability to hit the archer before 
he is in range to shoot his arrows. That is a good news story 
on the air side.
    We don't have a similar capability on the ship side. So if 
I want to shoot another ship and I am a surface ship, I have to 
wait until I am within Harpoon range if I have Harpoons even 
onboard, which means I am probably half of the distance that he 
can reach me. So he can--I am well within his weapons envelope 
when I do that.
    For submarines, it is even worse because my antisubmarine 
rocket that I have got onboard of a surface ship has a range of 
about 12 miles, whereas the antiship cruise missiles that 
Chinese submarines, for example, can carry have ranges of a 
couple hundred miles and they can be launched comfortably from 
100 to 150 miles, so I am well within his weapons range when I 
am able to shoot him.
    Now, we might have a helicopter or something flying around 
that might be able to attack him, but that is only if the 
helicopter is in the right place at the right time and is able 
to do something about it. So we need new weapons that allow me 
to increase the range.
    So on the ship side, the Navy is developing the long-range 
antiship missile, the LRASM, that will eventually be going onto 
surface ships. I would advocate that. In addition to being able 
to do ship attack, that missile will also be able to do strike 
missions, because every VLS [vertical launching system] cell 
that I take for a strike mission is a missile cell I can't use 
for anything else. So we need more multi-mission weapons.
    And then, for the submarine threat, we need to develop an 
antiship rocket that has got longer range. So if I do detect a 
contact, a submarine out, you know, dozens of miles away, more, 
I can engage him right away and make him go away before he is 
able to mount an attack against me.
    Mr. Conaway. Dozens of miles is significantly shorter than 
200 miles you mentioned earlier.
    Mr. Clark. Right. Right.
    So it is--you could--we could maybe develop an 
antisubmarine rocket that goes out, you know, 100, 150 miles 
that would be able----
    Mr. Conaway. So it is on--it is on the weapons package, 
isn't it, not necessarily the----
    Mr. Clark. Right.
    Mr. Conaway [continuing]. The transport of those weapons?
    Mr. Clark. Right. My detection capability may or may not 
extend out that far under water.
    Mr. Conaway. Yeah.
    Mr. Clark. But you certainly want the ability to reach out 
that far if you were able to get detection.
    Mr. Conaway. I got you.
    And then your fourth point about expanded capacity for 
train and equipment. I must have dozed off. Can you back up and 
go through that one again. Are you just talking about using 
different ships to do the train and equip mission that we are 
currently using?
    Mr. Clark. Right. So, normally, when we want to do security 
cooperation----
    Mr. Conaway. And stop laughing in the back. You saw me 
dozing off. So stop it back there.
    Mr. Clark. Normally, the kind of security cooperation or 
training missions that we do with partner nations, especially 
some of the less-capable partners, we use small surface 
combatants to do that.
    We have used frigates in a lot of cases to do that over the 
last 20 or 30 years. Well, we don't have any frigates now. They 
are all being decommissioned, and we are only going to have 
half the----
    Mr. Conaway. Unless you rename the LCS.
    Mr. Clark. Right. Right.
    And so we have got a few LCS out there, but not very many, 
and they would ostensibly pick that load up. But we only have 
half the number of small surface combatants that are required 
right now, and it is going to be below the requirement until 
well into the 2020s.
    Mr. Conaway. So that is more just a tactics issue? I mean--
--
    Mr. Clark. So I am arguing that we take some of the 
noncombatant ships----
    Mr. Conaway. Right.
    Mr. Clark [continuing]. In the fleet and just take some of 
those mission packages from the LCS and, instead, put those 
onto the noncombatant ships and get the joint high-speed vessel 
and the mobile landing platform and some logistic ships to go 
out and do these missions instead. So the missions get done, 
but we are not having to do it with a cruiser.
    Mr. Conaway. All right. Well, thank you all for your 
comments. Thank you.
    Mr. Forbes. Mr. McGrath, could you follow up on Mr. 
Conaway's question a little bit, too. Because we have really 
three concepts. We can block the arrow. You know, we can try to 
blind the archer. We can try to kill the archer.
    I think one of the things both of you have talked about is 
that right now we have an overcapacity of trying to block the 
arrow, but technology is getting to the point where it is going 
to be more and more difficult to do that; so, we are going to 
have to try to kill the archer.
    And so can you kind of explain the tradeoffs we have in 
those two concepts.
    Mr. McGrath. Bryan came up in the Navy as a submariner. I 
came up as a surface guy, Aegis for most of my time. And so, 
when Bryan talks about his concept for air defense and he talks 
about waiting longer to take the shot, I start to get a little 
nervous, because that is--that is the human reaction that you 
have in a ship, is that you want to kill that missile as far 
away from you and from what you are protecting as possible.
    Range equals dollars. It is a very simple--very simple 
thing. Probability of kill increases as range decreases. Right? 
All of these things are interrelated, but the nervousness of a 
surface warfare officer remains. If I have to sit there and 
wait, it is a hard thing to do.
    And so, when Bryan and I have our arguments about this 
concept, I talk to him about we have to--there is a culture to 
overcome, there are training issues we would have to overcome, 
and we would have to layer into this--so that is--what he is 
describing is the blocking--right?--killing the--killing that--
killing that inbound missile closer to you at a more economical 
rate. That is fine.
    The other--one of the other things that you could do is you 
can mess with its guidance. You can--you can make it track 
something that is not you--deceit, deception. The surface force 
in N2/N6 at the Pentagon are putting a lot of money into the 
SEWIP [Surface Electronic Warfare Improvement Program] Block 
III electronic warfare system that we will put to sea on ships.
    The more we can defeat kinetic attacks with nonkinetic 
means, the deeper our magazines will get. The more we are able 
to--the more we are able to integrate the weapons systems that 
Mr. Langevin was talking about that are pennies or dollars a 
shot, the deeper our magazines will get.
    We have to maintain, though, the ability to reach out at 
range. Some percentage of those magazines has to be filled with 
weapons that can take advantage of the sensor volume that we 
have.
    That has been one of our problems for a long time in 
surface warfare, is we go out there and we bang away with a 
SPY-1 radar--or soon a SPY-6 radar--on the AMDR [Air and 
Missile Defense Radar] that has got, I mean, hundreds of miles 
of range, but we could only take advantage of a small part of 
that search volume. The SM-6 helps us overcome that.
    So taking the archer out before he shoots his arrow is, 
once again, important, like it was in the Cold War. In the Cold 
War, we set F-14s out hundreds of miles from the aircraft 
carrier and we had tactics that we developed. We had tanking 
that would support it. The outer air battle was something we 
took a lot of pride in being able to fight in. When that threat 
dissipated, we de-emphasized the outer air battle. We are 
gaining some of that back.
    I think, on a totally unrelated--not a totally unrelated--
the F-35 will need a longer range AAW [anti-aircraft warfare] 
weapon, something like we used to--like the Phoenix that we 
grew up with on the F-14. We need a long-range air-to-air 
weapon so that the F-35 operating in this naval integrated fire 
control-counter air environment, NIFC-CA [Naval Integrated Fire 
Control-Counter Air Capability], can get that archer even 
further away, maybe when he goes feet wet. Maybe you don't have 
to wait until he gets near his weapons release point.
    So the technology is there that we can exploit, but we need 
the weapons that exploit the search volume that we are able to 
generate.
    Mr. Forbes. I want to thank you both for taking the time to 
be here with us today. And, as I mentioned to both of you 
before we started, I want to give you now whatever wrap-up time 
each of you need for anything you need to clarify, maybe 
elaborate or that we didn't ask that you think is important to 
give as part of this transcript.
    And, Mr. Clark, we will start with you.
    Mr. Clark. Thank you, sir.
    So one thing I will note is the new technologies we talked 
about that could be used for air defense, so rail gun, lasers. 
High-powered microwave would be another example and then 
electronic warfare. All of those technologies could do a lot to 
give us more defensive capacity and open up those vertical 
launch system cells for offensive weapons instead.
    The one thing that you have to do in order to leverage 
them, though, is you have to be able to accept that missiles 
are going to get closer to you before you engage them, because 
all of those systems are line-of-sight systems that can only, 
you know, engage a missile if it is on the horizon 10 miles 
away and, if it is a little bit higher up, maybe 20 miles away. 
So you are not going to be able to engage incoming missiles 
with a nonkinetic weapon like that at more than 20 or 30 miles, 
generally. So that is part of the air defense concept you have 
to accept.
    But then, you know, stepping back to look at the big 
picture, the Navy is faced with a lot of hard choices in the 
next, you know, couple of years as it starts to figure out how 
to equip the surface force. And the surface force doesn't have 
the clear and unambiguous mission of the undersea forces that, 
you know, do things for surveillance and strike and for 
strategic deterrence, and it doesn't necessarily have the clear 
missions of the carrier air wing.
    But it is kind of the jack-of-all-trades. It does a lot of 
different things, and we depend on it for a lot of different 
missions, from security cooperation all the way through high-
end missile defense and strike.
    And, as a result, it is hard for it to be able to maintain 
that ability to work in every domain, from undersea to air and 
space, as well as being able to do every mission across the 
range of military operations.
    So the Navy has got to put the investment necessary to 
maintain the force structure capacity so it can maintain the 
presence. It has got to maintain the warfighting capability in 
the fleet that it needs in order to be effective and then deter 
conflict. And then it has got to be willing to sustain that 
over time, even in an environment where other things are going 
to intrude upon it.
    So I would advocate that the Navy needs to look carefully 
at these upcoming decisions and, you know, adapt the surface 
fleet to be able to evolve into the fleet that is able to go 
back on offense and develop this offensive mindset and equip it 
with the kinds of weapons and the kinds of sensors it needs to 
be able to be effective.
    And, you know, I think one thing--one thing I fear is that 
we will just progress down the status quo, we will simply 
recapitalize our existing systems, as opposed to adopting new 
concepts that might enable us to maintain the warfighting 
capability we need going into the future.
    Mr. Forbes. Thank you.
    Mr. McGrath, give you the last word.
    Mr. McGrath. Thank you for this opportunity.
    My friend Ron O'Rourke at the Congressional Research 
Service likes to talk about----
    Mr. Forbes. He is watching what you say; so, make sure that 
you don't say anything critical.
    Mr. McGrath. He talks about being in a new strategic era, 
and I think he is right. My way of putting that is: Great power 
dynamics back on the menu.
    We have to begin to think differently about how conflict in 
this new strategic era is waged. We cannot continue to address 
this question with the same risk profile that we applied to 
campaigns and campaign analysis when we were the sole 
hyperpower, when there was no blue-water threat to the U.S. 
Navy.
    Those aspects of that threat environment drove us to well-
intentioned decisions. We have removed surface-to-surface 
missiles from our DDG Arleigh Burke destroyers. We built 
Arleigh Burke destroyers, from number 51 to number 78, with a 
Harpoon missile on it. Number 79 through today cannot kill 
another ship over the horizon by itself. We have not built a 
ship in the United States Navy since 1999 that can kill another 
ship over the horizon by itself.
    That decision and decisions about how to allocate missions 
within the portfolio--surface, subsurface and aviation--has led 
to a situation in which we look at the surface force, the Navy 
looks at the surface force, as something that needs to be 
protected by the air wing. I think that needs to be questioned.
    I think we have put a ton of money in the last 30 years 
into the world's most sophisticated air defense systems. I 
think that we have to begin to question whether or not air 
supremacy or air superiority that is required for surface 
operations--detached surface operations--whether that can't be 
provided to a level of risk that is acceptable by the ships 
themselves.
    I am not saying that we should drive three-ship SAGs into 
the Taiwan Strait. I am saying that the Chinese ISR complex is 
not equally as good throughout its entire volume and that there 
are places within it where surface forces will be able to 
operate, will be able to create mayhem, and will be able to 
hold targets that that opponent would value at risk. We just 
have to think differently about that risk.
    Thank you.
    Mr. Forbes. Thank you, both. We appreciate your time, and 
thank you for sharing it with us today.
    And, with that, Mr. Courtney if there is nothing else that 
you have, then, we are adjourned.
    Mr. Courtney. Thank you, both.
    Mr. Forbes. Yeah.
    [Whereupon, at 3:08 p.m., the subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             April 15, 2015
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 15, 2015

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
      
   
                                [all]
</pre></body></html>
